               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Delivery Operations Data Usage

                       Audit Report




                                              October 11, 2012


Report Number DR-AR-13-001
                                                                      October 11, 2012

                                                    Delivery Operations Data Usage

                                                       Report Number DR-AR-13-001




BACKGROUND:
The U.S. Postal Service has a number        These conditions occurred because
of systems that contain critical data       management has not streamlined city
used to manage delivery operations.         delivery data and reporting needs or re -
The Delivery Operation Information          emphasized data and report operating
System is considered city delivery’s        procedures for delivery managers.
major system. This system interfaces        Management indicated the evaluated
with the Enterprise Data Warehouse as       rural route structure does not require a
well as the Delivery Data Mart, City        daily route management system. Also,
Delivery Variance, and eFlash systems,      there is limited ongoing coaching and
among others. Rural delivery has            mentoring on the use of systems,
various systems and data available to       performance reports and data for new
manage its operations. Management           supervisors and managers.
uses these systems, data, and reports
to maximize resources, increase             It is paramount that the systems, reports
operational efficiency, and improve         and data are optimized, so supervisors
service.                                    and managers can make informed and
                                            timely operational decisions.
Our objective was to assess the Postal
Service’s use of data to manage             WHAT THE OIG RECOMMENDED:
delivery operations.                        We recommended the vice president,
                                            Delivery and Post Office Operations,
WHAT THE OIG FOUND:                         collaborate with the vice presidents,
We found city delivery operations have      Area Operations, to streamline data and
a substantial amount of systems,            reporting needs and re-emphasize city
reports, and data to manage operations.     delivery operating procedures to new
Also, new supervisors and managers          supervisors and managers. Additionally,
did not always know how to use these        we recommended management mentor
tools and data to manage operations.        and coach new supervisors and
Further, our assessment of 32 prior         managers on the use of systems and
delivery reports showed ongoing issues      performance reports to assist them with
with data usage, availability, and          understanding data and managing
accuracy. For rural delivery, there is no   operations.
centralized system containing routes,
workhours, and other management             Link to review the entire report
information.
October 11, 2012

MEMORANDUM FOR:             GREG G. GRAVES
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Delivery Operations Data Usage
                            (Report Number DR-AR-13-001)

This report presents the results of our audit of Delivery Operations Data Usage (Project
Number 12XG013DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan Brennan
    Elizabeth A. Schaefer
    Severo Garza
    Philip F. Knoll
    Vice Presidents, Area Operations
    Corporate Audit and Response Management
Delivery Operations Data Usage                                                                                     DR-AR-13-001




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Delivery Operations Data Usage ..................................................................................... 2

   City Delivery Operations .............................................................................................. 2

   Prior Data Usage Reports ............................................................................................ 3

   Rural Delivery Operations ............................................................................................ 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 6

Appendix B: City Delivery Critical Systems, Reports, and Indicators (Data) by Level ..... 7

Appendix C: Glossary of Critical Systems, Reports, and Indicators (Data) ..................... 9

Appendix D: Postal Service Office of Inspector General and General Accountability

Office Data Usage Prior Reports Fiscal Years 2008-2012 ............................................ 12

Appendix E: Rural Delivery Systems ............................................................................. 14

Appendix F: Management’s Comments ........................................................................ 15
Delivery Operations Data Usage                                                                           DR-AR-13-001



Introduction

This report presents the results of our audit of delivery operations data usage (Project
Number 12XG013DR000). Our objective was to assess the U.S. Postal Service’s use
of data to manage delivery operations. This is a self-initiated audit and addresses
strategic, financial, and operational risks. See Appendix A for additional information
about this audit.

The Postal Service has a number of systems, containing critical data used to manage
day-to-day delivery operations. Because delivery is the largest cost center for the
Postal Service and uses the most workhours to deliver the mail, it is critical that
officials have the necessary data to manage operations. As the Postal Service
continues to face financial challenges due, in part, to declining mail volume, officials
have recognized the need to take action and improve data usage. The Postal Service
is assessing how other companies are using data as a measure to evaluate its own
current use of data.1 Evaluating data usage could assist the Postal Service with
overall improvement of delivery operations.

Conclusion

We found there is a substantial amount of systems, reports, and data indicators
supporting city delivery operations. We identified 44 systems containing city delivery
data and more than 160 reports from various systems with thousands of data points.
We also found that new unit supervisors and managers did not always know how to
use tools and data to manage operations. Further, our assessment of 32 prior U.S.
Postal Service Office of Inspector General (OIG) and U.S. Government Accountability
Office (GAO) delivery reports showed there were ongoing issues in delivery
operations, which include data usage, availability, and accuracy. For rural delivery,
there is no centralized system containing routes, workhours, and other management
information.

These conditions occurred because officials have not streamlined city delivery data
and reporting needs or re-emphasized city delivery operating procedures to new unit
supervisors and managers. Management also indicated that the rural route structure2
does not require a daily route management system. Furthermore, there is limited
ongoing coaching and mentoring for new supervisors and managers on the use of
performance systems, reports, and data for new supervisors and managers.

It is paramount that the systems, reports, and data are optimized so supervisors and
managers can make informed and timely operational decisions.


1
 Business Environment Assessment, 2009-2013, pages 51-52.
2
 Rural carriers are paid by route and the cost for the route is based on an annual route evaluation. City carriers are
generally full-time employees guaranteed 40 workhours per week, 8 hours per day and overtime in excess of
40 hours.
                                                           1
         This report has not yet been reviewed for release under FOIA or the Privacy Act.
         Distribution should be limited to those within the Postal Service with a need to
         know.
Delivery Operations Data Usage                                                                      DR-AR-13-001



Delivery Operations Data Usage

City Delivery Operations

We found that city delivery operations have a substantial amount of systems, reports,
and data indicators. Specifically, we found:

   Forty-four systems that contained city delivery data including Delivery Operations
    Information System (DOIS), Enterprise Date Warehouse (EDW), Delivery Data
    Mart (DDM), and eFlash.

   About 160 reports from various systems.3

   Thousands of data points exist in these systems.4

See Appendix B and Appendix C for additional information on the systems, reports,
and data indicators identified by management at each level as the most critical.

We also concluded that some of the data are not 'real time' and some of the reports
are not 'exception-based' which would facilitate management actions. For example,
there is a 2-day delay for managed service points (MSP) data and eFlash data are
weekly. Additionally, there are limited exception reports in systems such as DOIS and
EDW.

Area, district, and unit officials indicated that it is difficult to prioritize the voluminous
amount of data. Area and district managers indicated they have learned how to
identify what data are important through on-the-job experience. However, at the unit
levels some supervisors and managers still have challenges with using data and
reports to manage, especially in conjunction with other tools.

These conditions occurred because management had not streamlined systems, data,
and reporting based on the needs at each level. They also had not re-emphasized the
operating procedures found in the Delivery Standard Operating Procedures, Field
Operations Standardization Development, Morning Standard Operating Procedures
(AMSOP) II Guidebook, and Delivery Operation Information System Quality
Assessment for delivery management officials.

Moreover, new unit supervisors and managers did not always know how to use data to
manage operations. Officials at all levels stated they have concerns with new unit
supervisors and managers not using reports and data to manage although they may
have received DOIS and other web-based training.5 Also, there is limited continuous

3
  The reports are from DOIS, DDM-EDW, and eFlash.
4
  This information is not tracked by Postal Service management, so we could not determine the exact amount of
data points.
5
  The GAO reported this issue in Mail Delivery Efficiency Has Improved, but Additional Actions Needed to Achieve
Further Gains (Report Number GAO-09-696, dated July 2009).


                                                        2
Delivery Operations Data Usage                                                                   DR-AR-13-001



coaching and mentoring on the analysis and use of performance tools for new
supervisors and managers.

It is paramount that the Postal Service optimize its systems, reports and data so
supervisors and managers can make informed and timely operational decisions.

Prior Data Usage Reports

We identified 32 prior OIG and GAO reports that mentioned various data issues from
fiscal year (FY) 2008 through FY 2012.6 We found:

   Twenty-six instances where data was not being used to manage operations.
   Seventeen instances where data was inaccurate.7
   Four instances in which data did not exist.

This occurred generally due to a lack of or limited oversight and the absence of written
data requirements that impacts management’s ability to effectively manage and
operate at the highest level of efficiency.

These reports made recommendations for these issues; therefore, we are making no
further recommendations in this report. See Appendix D for additional information
related to prior reports.

Rural Delivery Operations

Rural delivery operations generally have data available to review and analyze
operations. However, rural delivery operations do not have a centralized system, and
managers must access at least 15 systems to manage rural delivery operations daily.
Officials indicated that rural data is mostly manually input into various systems, and
the reports and data are reliable, useful, and accurate. See Appendix E for additional
information related to rural systems.

Management stated that with the evaluated rural route structure, they did not have a
specific need for a centralized daily route management system similar to DOIS.8 They
stated that rural delivery will be deploying a Rural Workhour Tracker System in
Quarter 1, FY 2013, which will allow managers to review rural workhour data daily. We
plan to conduct a program management review of rural delivery operations in
FY 2013; therefore, we are not making any recommendations in this area.

6
  In recent OIG reports, Global Positioning System: End-to-End Platform and Actionable, Robust Reports Needed
to Achieve Goals and Potential Return-on-Investment (Report Number DR-MA-11-003, dated September 30, 2011)
and Survey of Postmasters’ Paperwork and Reporting Requirements (Report Number DR-AR-12-001, dated May
25, 2012), we identified issues with managers not using reports and excessive reporting; however, we made
recommendations to senior management, and they have addressed these issues.
7
  These systems included the Delivery Sortation Management Automation Research Tool, Address Management
System, DOIS, Automated Vehicle Utilization System (AVUS), and Vehicle Management Accounting System –
replaced by Solutions for Enterprise Asset Management System.
8
  DOIS allows managers to obtain the data needed to manage without going to several systems. This new system
will enable managers to go to one system to obtain many of the reports they need to manage.


                                                      3
Delivery Operations Data Usage                                                DR-AR-13-001




Recommendations

We recommend the vice president; Delivery and Post Office Operations, collaborate
with the vice presidents, Area Operations, to:

1. Streamline systems, reports (including exception based reporting), and data
   (including real-time data) to meet city delivery needs.

2. Re-emphasize city delivery operating procedures to new supervisors and
   managers.

3. Re-emphasize to new supervisors and managers pertinent performance systems
   and reports through ongoing coaching and mentoring to manage operations.

Management’s Comments

Management agreed with the findings and recommendations.

For recommendation 1, management stated they will continue to streamline data
needs during FY 2013, which included eliminating manual reports and checklists
where data was readily available in June 2010, and offering the AM/PM WEB report
for local reporting requirements.

Regarding recommendation 2, management stated they will re-emphasize those data
elements and procedures critical to operations and performance, in the updated
AMSOP program. Management’s target date for implementation is October 2012.

Regarding recommendation 3, management stated they will coordinate with Area
Managers, Delivery Programs and determine what mentoring programs are in place
and review best practices to share with all areas. Further, management stated they
plan to coordinate with Professional Skills and Development to raise area and district
awareness of the mentoring programs available through the Learning Management
System. Management’s target date for implementation is December 2012. See
Appendix F for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendation 1 and 2 significant, and therefore, requires OIG
concurrence before closure. Consequently, the OIG request written confirmation when
corrective action is completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.



                                           4
Delivery Operations Data Usage                                                                          DR-AR-13-001




                                Appendix A: Additional Information

Background

The Postal Service has a number of systems9 that contain critical data used to
manage day-to-day city and rural delivery operations.10 City delivery’s major system is
DOIS, which was deployed for all Postal Service areas in FY 2001 at $119.6 million.
DOIS was designed to reduce delivery workhours by providing supervisors with
actionable data on available resources to handle daily workload. Supervisors can
assign carriers to routes based on workload to ensure the best possible route
coverage, while balancing overtime; and capturing under time, penalty overtime, time
of day delivery, auxiliary assistance, and more.

Over the years DOIS has evolved and now interfaces with other key systems, such as
the EDW, more specifically, the DDM, Customer Daily Variance (CDV), and eFlash.
Additionally, the Postal Service uses other systems such as the Collection Point
Management System (CPMS) and City Delivery Pivoting Opportunity Model to
manage operations. Also, rural delivery has various systems and data to manage
operations. Delivery managers, supervisors, and other staff review and use delivery
data each day in the areas of collection and delivery of mail, vehicle operations, and
customer service. Postal Service staff has been assigned to manage the design,
evaluation, and monitoring of these and other systems, containing critical delivery data
to maximize resource utilization, increase operational efficiency, and improve service.

Objective, Scope, and Methodology

Our objective was to assess the Postal Service’s use of data to manage delivery
operations. To accomplish our objective, we:

   Reviewed Postal Service documentation, including applicable policies and
    procedures, and prior OIG and GAO reports related to data usage from FY 2008
    through August 18, 2012.

   Analyzed FY 2010 through FY 2011 City Delivery Efficiency Performance and
    Analysis Risk Indicator Scans (PARIS) model indicators, which include overtime,
    delayed mail, carriers after 5 p.m., Delivery Point Sequencing (DPS), staffing, MSP
    scans, overnight percentage, office and street efficiency, and workhour indicators.

   Identified the top 10 most at risk districts as well as the best performing districts
    using quarterly City Delivery Efficiency PARIS model indicator results. We

9
  Headquarter officials indicated they are not the owners of the majority of the delivery systems. However, they are
50 percent responsible for DOIS as far as participating in beta testing, and so forth. We identified 44 systems that
contain delivery data and additional systems may exist.
10
   City delivery is the largest labor category and accounts for more than 40 percent of total workhours in the
Postal Service. More than 70 percent of delivery hours are in the city carrier labor category. In FY 2012, there were
about 177,620 city carriers with an operating budget of $16,381,465,609 and 374,985,534 budgeted workhours.


                                                          5
Delivery Operations Data Usage                                                                   DR-AR-13-001



     judgmentally selected one of the most at risk performing districts and one of the
     best performing districts to determine each districts overall performance for site
     selection.

    Judgmentally selected two delivery units from the best and the most at risk
     performing districts based on street and office opportunity hours11 from the
     Postal Service’s CDV system for site selection.

    Conducted interviews with headquarters, area, district, and unit officials to obtain
     information on how they use data to manage delivery operations.

    Contacted the Capital Metro, Southern, Great Lakes, and Northeast areas and
     judgmentally selected two districts and four units within the Capital Metro and
     Southern areas based on the results of our analysis of PARIS model indicator data
     for each district and CDV opportunity hours for each delivery unit.

We conducted this audit from February through October 2012 in accordance with
generally accepted government auditing standards and included such tests of internal
controls, as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management on August 6, 2012, and included their comments
where appropriate.

We used computer-processed data from EDW and CDV. We retrieved data for
FYs 2010 and 2011, but did not test controls over these systems; however, we
checked the reasonableness of results by reviewing existing information about the
data and the system that produced them. We determined that the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The U. S. Postal Service OIG identified and reviewed 32 prior OIG and GAO reports
on data existence, usage, or accuracy issues related to the objective of our audit. See
Appendix D for a table listing the 32 reports.




11
   Opportunity hours represent earned hours based on workload and the variance between what was earned for
street and office versus actual hours.


                                                      6
Delivery Operations Data Usage                                                 DR-AR-13-001




  Appendix B: City Delivery Critical Systems, Reports, and Indicators (Data) by
                                      Level

                   Table 1. City Delivery Operations Critical Systems
       Critical Systems          Headquarters             Area   District   Unit
       AVUS                                                
       CDV                                                 
       Customer Service                                    
       Variance
       CPMS                             
       Customer Service                                                    
       Daily Reporting
       System
       City Delivery                                              
       Pivoting
       Opportunity
       Model
       DOIS                                                               
       eFlash                                                     
       EDW                                                                
       Express Mail                                                         
       Performance on
       Web Error
       Reporting
       Lean Matrix                                                
       Time and                                                           
       Attendance
       Collection System
       Web Complement                                                       
       Information
       System
       Source: Postal Service supervisors and managers.




                                                    7
Delivery Operations Data Usage                                                 DR-AR-13-001




                   Table 2. City Delivery Operations Critical Reports
       Critical Reports          Headquarters             Area   District   Unit
       Clock Ring Errors                                                     
       Customized                                                         
       Lean Matrix                                                
       Failure Finder                                                        
       Scans
       Flat Sequencing                  
       System
       MSP Scans                                                            
       Route Carrier                                                         
       Daily
       Performance
       Workload Status                                                       
       Workhour to                                                           
       Workload
       Transitional                                                        
       Employee Usage
     Source: Postal Service supervisors and managers.



              Table 3. City Delivery Operations Critical Indicators (Data)
       Critical Indicators       Headquarters             Area   District   Unit
       Carriers Return                                                    
       Time
       Deliveries Per                   
       Hour
       DPS                              
       Flat Sequencing                  
       System
       Office and Street                                                    
       Variance
       Overtime                                                           
       Percent to                       
       Standard
       Sick Leave                                                           
       Percentage
       Street to Base                                                       
       Transitional                                        
       Employees
       Workhours                                                          
       Source: Postal Service supervisors and managers.




                                                    8
Delivery Operations Data Usage                                                   DR-AR-13-001



       Appendix C: Glossary of Critical Systems, Reports, and Indicators (Data)

City Delivery Operations Critical Systems

   Automated Vehicle Utilization System (AVUS) – a web-based application,
    designed to allow the carrier to enter vehicle mileage information into the scanner
    at appropriate points.

   City Delivery Variance (CDV) – a Function 2B management model that provides
    complement, workhours, productivity, workload, and route and delivery analysis;
    and calculates actual versus earned variances.

   Customer Service Variance (CSV) – a Function 4 management model that
    provides complement, workhour, productivity, workload, and route and delivery
    analysis; and calculates actual versus earned variances.

   Collection Point Management (CPMS) – a management tool for the
    Postal Service to monitor collection schedules and maintain the facilities
    information.

   Customer Service Daily Reporting System (CSDRS) – provides timely
    information to management on mail and operational exception situations.

   City Delivery Pivot Opportunity Model (CDPOM) – a performance management
    tool that assists local unit and senior managers with planning and scheduling
    necessary staffing to match workload trends.

   Delivery Operation Information System (DOIS) – a system used by delivery unit
    supervisors and managers to support management of delivery unit office activities,
    planning of street activities from the office, and management of route inspection
    and adjustment activities.

   eFlash – a weekly operating reporting management system containing payroll and
    non-payroll data used as a management tool for the various functional areas such
    as delivery, mail processing, employee relations, labor relations, and finance.

   Enterprise Data Warehouse (EDW) – this system contain the Delivery Data Mart
    (DDM) which provides access to delivery data and critical business information
    used for performance management, operational, and strategic analysis. The DDM
    has data sourced from DOIS, AVUS, and CPMS and provides reports at all levels
    of the organization from national to delivery unit.

   Express Mail Performance on Web Error Reporting (EMPOWER) – designed to
    help delivery managers correct delivery issues and prevent future failures.




                                            9
Delivery Operations Data Usage                                                  DR-AR-13-001




   Lean Matrix – a Function 2B management model that provides complement,
    workhours, productivity, workload, routes, and delivery analysis; and calculates
    actual versus earned variances.

   Time and Attendance Collection System (TACS) – an Oracle database system
    designed to combine all of the timekeeping systems postal installations use to
    collect city employee time and attendance information.

   Web Complement Information System (WebCoins) – an application designed to
    provide local management with timely and accurate complement information.

City Delivery Operations Critical Reports

   Clock Ring Errors – assists supervisors and other staff with identifying duplicate,
    missing, and out-of-sequence clock rings such as Fatal Error, Missing Lunch
    Punch, Duplicate Begin Tour, Non-Scheduled End Tour, and Not Full Day on
    Clock.

   Lean Matrix – a variance report that compares area and national scores for
    various indicators. Also, a ranking from 'high' to 'low' is given for each area based
    on the indicators.

   Failure Finder Scans – identifies failed Express Priority Scans.

   Flat Sequencing System (FSS) – shows the percentage of automated flats that
    has been sorted into the carrier’s line-of-travel that allows carriers to take mail
    directly to the street, with no casing time in the office.

   Managed Service Points (MSP) Scans – computes the time difference between
    actual and scheduled scan times.

   Route Carrier Daily Performance – provides delivery unit supervisors with
    projected and actual hours for the routes in the delivery unit.

   Workload Status – a daily planning report that outlines for each route in the
    delivery unit: actual mail volumes, projected overtime or undertime, projected office
    and street workloads, and projected leave and return times.

   Workhour to Workload – provides supervisors and managers with the necessary
    route data to plan. Specifically, includes office and street projected and actual
    hours as well as volume data.




                                            10
Delivery Operations Data Usage                                                  DR-AR-13-001




   Transitional Employee (TE) Usage – provides the number of TEs in a given
    location by function.

City Delivery Operations Critical Indicators

   Carriers Return Time – carriers return time is based on a combination of their
    leaving time, the route’s street time, and any additional street duties assigned to
    the carrier for that day. The DOIS Workload Status Report will show carriers’
    estimated return time based on these factors. The goal is that all carriers return by
    5 p.m., based on the estimated time from DOIS.

   Deliveries Per Hour (DPH) – cumulative deliveries divided by total city delivery
    workhours over a given period.

   Delivery Point Sequencing (DPS) – percentage of automated letter volume in
    relation to total letter volume.

   Flat Sequencing System (FSS) – percentage of automated flat volume in relation
    to total flat volume.

   Office and Street Variance – difference between projected office and street hours
    vs. actual office and street hours.

   Overtime Percentage – work performed after 8 hours on duty in any 1 service day
    or 40 hours in any 1 service week.

   Percent-to-Standard – determined by dividing actual office hours by standard
    office hours. Standard hours are determined by applying the current office time
    standards plus fixed office time to the volume for the period in question. By using
    fewer hours than standard, the office will show it is working at a high efficiency
    level.

   Sick Leave Percentage – identifies the percentage of carriers on sick leave over a
    given period.

   Street Variance to Base – projected street and total time for the unit for the day
    compared to base.

   Transitional Employees – identifies the number of transitional employees and
    whether they are working in the correct function.

   Workhours – the number of hours worked by carriers in the office and on the
    street.




                                            11
Delivery Operations Data Usage                                                                 DR-AR-13-001



          Appendix D: Postal Service Office of Inspector General and General
        Accountability Office Data Usage Prior Reports Fiscal Years 2008-201212

                                                                                        Data
                                                                              Data Do    Are   Data Are
       Report                                                                   Not      Not     Not
       Number                  Report Name                      Report Date    Exist    Used   Accurate
 DR-MA-08-001          Timely City Delivery – Chicago            10/11/2007              X         X
                       City Delivery Vehicle Mileage -
                       Base Versus Actual - National
 DR-AR-008-004         Capping Report                             3/4/2008               X         X
                       Data Needed to Assess the
 GAO-08-787            Effectiveness of Outsourcing              7/24/2008      X
                       Management of Delivery Point
                       Sequencing Percentage
                       Increases for City Delivery –
 DR-AR-08-005          Southeast Area, Atlanta District          7/30/2008               X         X
                       Vehicle Maintenance Facilities –
                       Scheduled Maintenance
 DR-AR-008-006         Service in the Southwest Area             8/14/2008               X         X
                       Vehicle Maintenance Facilities –
                       Scheduled Maintenance
 DR-AR-08-007          Service in the Southeast Area             9/16/2008               X         X
                       Vehicle Maintenance Facilities –
                       Scheduled Maintenance
 DR-AR-08-008          Service in the Western Area               9/29/2008               X        X
                       Vehicle Maintenance Facilities –
                       Scheduled Maintenance
 DR-AR-08-009          Service in the Great Lakes Area           9/29/2008               X         X
                       Vehicle Maintenance Facilities –
                       Scheduled Maintenance
 DR-AR-08-010          Service in the Pacific Area               9/30/2008               X         X
                       Vehicle Maintenance Facilities –
                       Scheduled Maintenance in the
 DR-AR-08-011          New York Metro Area                       9/30/2008               X        X
                       Management of Delivery Points
 DR-AR-08-012          – Southeast Area                          9/30/ 2008              X         X
                       Data Quality Issues with City
 CRR-AR-09-001         Carrier Street Time Study                 1/21/2009                         X
                       Vehicle Warranty Claims
 DR-AR-09-004          Process                                   1/30/2009               X         X
                       Management of City Letter
 DR-MA-09-001          Carrier Street Performance                3/26/2009               X
                       Intelligent Mail Benefits May Not
                       Be Achieved if Key Risks Are
 GAO-09-599            Not Addressed                              5/6/2009      X
                       Postal Service 2009 National
 DR-AR-09-006          Rural Mail Count – Nationwide             6/26/2009                         X
                       Mail Delivery Efficiency Has
                       Improved, but Additional
                       Actions Needed to Achieve
 GAO-09-696            Further Gains                             7/15/2009      X        X




12
     FY 2012 reports issued as of August 18, 2012.


                                                           12
Delivery Operations Data Usage                                                         DR-AR-13-001




                                                                         Data     Data     Data Are
    Report                                                              Do Not   Are Not     Not
    Number               Report Name                      Report Date    Exist    Used     Accurate
                 Management of Delivery Point
                 Sequencing Percentage
 DR-AR-09-010    Increases for City Delivery               9/28/2009               X          X
                 City Delivery Efficiency Review -
                 San Francisco Napoleon Street
 DR-AR-10-002    Station                                  12/18/ 2009              X

                 City Delivery Efficiency Review-
 DR-AR-10-006    Los Angeles                                7/1/2010               X

                 City Delivery Efficiency Review
 DR-AR-10-007    – Bay-Valley                              8/26/2010               X
                 City Delivery Efficiency Review
 DR-AR-10-009    – Atlanta                                 9/24/2010               X
                 City Delivery Efficiency Review
 DR-AR-11-002    – New York District                       1/18/2011               X
                 City Delivery Efficiency Review
 DR-AR-11-003    – Northern Virginia                       1/20/2011               X
                 City Delivery Efficiency Review
 DR-AR-11-004    – Chicago District                        3/30/2011      X        X
                 Global Positioning System: End-
                 to-End Platform and Actionable
                 Robust Reports Needed to
                 Achieve Goals and Potential
                 Return - Potential Return-on-
 DR-MA-11-003    Investment                                9/30/2011               X
                 Mail Volume Measurement for
                 City Delivery Carriers – Greater
 DR-AR-11-005    Indiana District                          6/29/2011                          X
                 National Assessment of City
                 Delivery Efficiency 2011 –Office
 DR-MA-11-002    Performance                               7/19/2011               X
                 Postmaster’s Paperwork and
 DR-MA-12-001    Reporting Requirements                    5/25/2012               X
                 City Delivery — Street Efficiency
 DR-AR-12-001    San Diego District                         6/5/2012               X
                 City Delivery- Street Efficiency
 DR-AR-12-003    Capital District                          8/16/2012                          X
                 City Delivery- Street Efficiency
 DR-AR-12-004    Louisiana District                        8/16/2012               X          X
Source: OIG.




                                                     13
Delivery Operations Data Usage                                                            DR-AR-13-001



                            Appendix E: Rural Delivery Systems

                   Rural Systems                                          Type of Data
 Christmas Workhour Tracker                           Workhour
                                                      Rural facility RD SOP Compliance and Certification
 Delivery and Customer Service Certification          Data
 Document Direct                                      Various Rural Data
 Eagan Mainframe Q002                                 Direct Data Entry
 Eagan Mainframe Q500                                 Route Data
 Eagan Mainframe View Direct                          Route Data
 Eagan Mainframe (Datakeeper)                         Route Data
 Eagan Rural Time and Attendance Collection
 System (RTACS)                                       Rural Time Keeping
 EDW                                                  Performance Data
 eFlash                                               Performance Data
 Form 4248 Web Application                            Rural Route Inspection
 Form 4003 Web Application                            Rural Route Description
 RDV                                                  Rural Route Base Data and Performance Reports
 Rural Route Mail Count (RRMC) Web Application        Rural Route Mail Count
 Web Complement Information System                    Complement Data
Source: Postal Service management.




                                                 14
Delivery Operations Data Usage                                DR-AR-13-001




                          Appendix F: Management’s Comments




                                         15
Delivery Operations Data Usage        DR-AR-13-001




                                 16
